              U.S. Department of Energy
              Office of Inspector General
              Office of Audits and Inspections




Inspection Report
Follow-up Inspection on Security
Clearance Terminations and Badge
Retrieval at the Lawrence Livermore
National Laboratory




INS-L-12-02                         March 2012
                                 Department of Energy
                                   Washington, DC 20585

                                         March 6, 2012


MEMORANDUM FOR THE ASSOCIATE ADMINISTRATOR FOR DEFENSE NUCLEAR
                 SECURITY
               MANAGER, LIVERMORE SITE OFFICE



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                            for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Follow-up Inspection on
                         Security Clearance Terminations and Badge Retrieval at the Lawrence
                         Livermore National Laboratory"

BACKGROUND

The Department of Energy's Lawrence Livermore National Laboratory (Livermore) is managed
and operated under contract by Lawrence Livermore National Security, LLC, for the National
Nuclear Security Administration. The Livermore Site Office is the NNSA Federal entity
responsible for administering the contract. Livermore is contractually obligated to follow the
Department’s security policies when individuals terminate employment. These policies include:
collecting and locally deactivating security badges; providing security briefings and ensuring a
Security Termination Statement (STS) is signed; and, sending requests for security clearance
terminations to NNSA Personnel Security Division in Albuquerque, New Mexico.

Our January 2006 report on Security Clearance Terminations and Badge Retrieval at the
Lawrence Livermore National Laboratory, (DOE/IG-0716), and reviews at other Department
facilities over the past 10 years revealed Department-wide weaknesses regarding the recovery of
security badges, following security termination briefing procedures, and the timely termination
of security clearances. Given these past concerns, we initiated this inspection to determine if
Livermore had improved its processes for terminating cleared employees; and, if the NNSA
Personnel Security Division was terminating security clearances in a timely manner.

CONCLUSIONS AND OBSERVATIONS

Our inspection revealed that Livermore and NNSA have generally taken corrective actions in
response to our 2006 report with regard to recovery of security badges, conducting security
termination briefings and timely termination of security clearances. Specifically:

   •   Livermore developed and implemented the Vital Information System Interactive Online
       Network, improving the employee termination process to include the retrieval of
        security badges, the security termination briefing procedures and the sending of clearance
        termination requests through an encrypted email system to NNSA Personnel Security
        Division;

    •   Livermore revised and improved its internal procedures for the recovery of security badges;

    •   NNSA Personnel Security Division improved the timeliness of security clearance
        terminations in the Department's Central Personnel Clearance Index; and,

    •   NNSA improved its process for transmitting the STS by developing and implementing
        an encrypted email system which Livermore is using to transmit its requests for
        security clearance terminations to NNSA Personnel Security Division.

While Livermore's changes to its badge retrieval procedures have addressed the issues
discussed in our 2006 report, we did identify opportunities for further improvements
regarding Livermore's security termination briefing procedures and NNSA's full utilization of
the encrypted email system.

                                    Livermore Badge Retrieval

Our inspection revealed that the development and implementation of the Vital Information
System Interactive Online Network enhanced Livermore's ability to communicate employee
termination information to security personnel, thus allowing security personnel to take necessary
actions to ensure the termination of local site access and the retrieval of security badges in a
more timely manner. In addition, Livermore updated its badge retrieval procedure in accordance
with NNSA Policy Letter, NAP 70.2, Physical Protection, improving Livermore's ability to
recover security badges that were not returned by terminating individuals on their last day of
employment. Specifically, NAP 70.2 requires that unrecovered security badges be treated as
stolen Government property. Livermore's updated procedure requires that if a security badge is
not returned in 5 days, it must be reported to the Livermore Security Incident Reporting Office as
a stolen badge. While we did not independently verify the effectiveness of this updated
procedure, we were told by a Livermore security official that since this procedure was
implemented, all security badges have been recovered.

                           Security Termination Briefings and Statements

We found that the development and implementation of the Vital Information System Interactive
Online Network also enhanced Livermore's ability to recognize the need to provide terminating
employees with a security termination briefing and the opportunity to sign an STS during the
briefing. However, we identified several issues that require additional action. DOE Manual
470.4-1, Safeguards and Security Program Planning and Management, 1 requires that
Department facilities such as Livermore ensure that individuals who no longer require a security
clearance, or who no longer require access to classified information, understand their continuing
responsibility to protect classified information. This is accomplished by providing the
individuals with the Security Termination Briefing that includes the opportunity to review

1
  DOE Manual 470.4-1 has been replaced by DOE Order 470.4B, Safeguards and Security Program. However the
requirements with respect to the STS forms are the same. At the time this report was written, Livermore's
management contract had not been modified to include the new Order.
                                                    2
and sign an STS. In addition, Department policy requires that if the individual is not available
for the Security Termination Briefing, the completed yet unsigned STS and an explanation of the
circumstances surrounding the termination, including why the signature could not be obtained,
must be submitted to NNSA Personnel Security Division.

Because terminating individuals were not always present on the day of their termination,
Livermore's policy was to mail the unsigned STS and a briefing booklet to the individuals, with a
direction to read the booklet and return the signed STS form. However, we observed that this
procedure was not always effective as many of the employee personnel security files reviewed
only contained unsigned STS forms with the notation "individual not present for the termination .
. . trying to obtain signature." Also, the files contained no further explanation of the
circumstances surrounding the termination or why the signature could not be obtained.

We believe that the mailing of the STS and briefing booklet to the terminated individuals did not
provide reasonable assurance that the individuals actually received the STS and the briefing
booklet since the terminated individuals could have moved or otherwise not have received the
clearance termination information. Further, the lack of a written explanation in the personnel
security files regarding the circumstances surrounding the termination, or why the signature
could not be obtained, was not consistent with the requirements of DOE Manual
470.4-1 and its replacement, DOE Order 470.4B. In addition, the lack of a written explanation
did not ensure that a permanent record existed with regard to the individual’s level of
cooperation during the termination process. This is important if the individual reapplies for a
position in the future that requires a security clearance. A Livermore official indicated that
Livermore and other NNSA sites are in the process of working together to develop procedures to
comply with the Department's requirements regarding the Security Termination Briefing and
STS.

                              Timely Termination of Security Clearances

Our inspection revealed that both Livermore and NNSA Personnel Security Division had made
improvements to the security clearance termination process. The request to terminate a security
clearance is accomplished by sending the STS from the affected NNSA site to NNSA Personnel
Security Division within two days of an employee's termination. Since our 2006 inspection,
Livermore officials noted that the Vital Information System Interactive Online Network was
designed to improve the employee termination process and ensure that security clearance
termination requests were sent to NNSA Personnel Security Division in a timely manner. In
addition, NNSA Personnel Security Division indicated that steps had been taken to improve the
timely termination of security clearances in the Department's Central Personnel Clearance Index
(CPCI) once it had received STS forms. CPCI is a Department-wide personnel security
automated information system for recording all security clearance transactions, including
terminations. DOE Manual 470.4-5, Personnel Security, states that the processing personnel
security office must note in the individual's personnel security file the date the access
authorization was actually terminated and enter related information in CPCI, within two-working
days of receipt of an STS or written notice of termination from an NNSA site. 2

2
  DOE Manual 470.4-5 has been replaced by DOE Order 472.2 Personnel Security which states all action must be
entered into CPCI within 48 hours of occurrence. At the time this report was written, Livermore's management
contract had not been modified to include the new Order.
                                                      3
One of the steps taken by NNSA Personnel Security Division since our 2006 report was the
development and implementation of an encrypted email system for transmitting STS forms from
the various NNSA sites to NNSA Personnel Security Division. Prior to the use of the encrypted
email system, facsimile machines were utilized to transmit and receive STS forms. Due to both
technical and human errors, the time and date stamps on STS forms were not always a reliable
indication of when STS forms were actually sent or received, thus making a concise assessment
of the timeliness of security clearance terminations difficult to determine. According to NNSA
officials, the encrypted email system now accurately records when STS forms are sent by the
sites and received by NNSA Personnel Security Division, eliminating the facsimile time and date
problems.

A Livermore official confirmed that Livermore is utilizing the encrypted email system to send
all STS clearance termination requests to NNSA Personnel Security Division. However, we
learned from an NNSA official that the encrypted email system was not being fully utilized by
all NNSA sites. We believe the use of this system at all NNSA sites would strengthen
internal controls regarding the timely termination of security clearances.

SUGGESTED ACTIONS

We suggest that the Manager, Livermore Site Office:

      1. Ensure that any completed but unsigned Security Termination Statements submitted to
         NNSA Personnel Security Division include a written explanation of the circumstances
         surrounding the termination and the reason why the signature could not be obtained.

We also suggest that the Associate Administrator for Defense Nuclear Security:

      2. Evaluate the reasons why some NNSA sites are not utilizing the encrypted email system
         and consider making use of the system mandatory throughout the NNSA complex.

No recommendations are being made in this report; therefore, a response is not required. We
appreciate the cooperation received from your staffs during our inspection.

Attachments

cc:    Deputy Secretary
       Associate Deputy Secretary
       Administrator, National Nuclear Security Administration
       Director, Office of Security, Office of Health, Safety and Security
       Chief of Staff




                                                  4
                                                                                     Attachment 1
                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

We initiated this inspection to determine if Lawrence Livermore National Laboratory had improved its
processes for terminating cleared employees; and, if the National Nuclear Security Administration
Personnel Security Division was terminating security clearances in a timely manner.

SCOPE

The inspection was completed in January 2012. This was a follow-up performance inspection to
our previous report on Security Clearance Terminations and Badge Retrieval at the Lawrence
Livermore National Laboratory, (DOE/IG-0716, January 2006). We conducted our inspection at
the Lawrence Livermore National Laboratory (Livermore) in Livermore, California; and, at
NNSA Personnel Security Division in Albuquerque, New Mexico.

METHODOLOGY

To accomplish the inspection objectives, we interviewed Livermore and NNSA personnel, and
reviewed personnel security files of terminated individuals at Livermore and NNSA Personnel
Security Division. Also, we reviewed and evaluated NNSA policies, Livermore internal policies,
and Department of Energy policies regarding security termination procedures for departing
employees. In particular:

   •   The former DOE Manual 470.4-1, Safeguards and Security Program Planning and
       Management, and the current DOE Order 470.4B, Safeguards and Security Program;

   •   The former DOE Manual 470.4-2A, Physical Protection, and the current NNSA Policy
       Letter (NAP) 70.2, Physical Protection; and,

   •   The former DOE Manual 470.4-5, Personnel Security and the current DOE Order 472.2,
       Personnel Security.

The inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspections, issued by the President's Council on
Integrity and Efficiency, January 2005. Those standards require that we plan and perform the
inspection to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions and observations based on our objectives. We believe the evidence obtained
provides a reasonable basis for our conclusions and observations based on our inspection
objectives. The inspection included tests of controls and compliance with laws and regulations
to the extent necessary to satisfy the inspection objectives. Because our review was limited, it
would not necessarily have disclosed all internal control deficiencies that may have existed at the
time of our inspection. Finally, we relied on computer-processed data to some extent to satisfy
our objective related to security management. We confirmed the validity of such data, as
appropriate, by conducting interviews and reviewing source documents.




                                                 5
                                                    Attachment 1 (continued)

An exit conference was waived by NNSA management.




                                          6
                                                                               Attachment 2


                                 PRIOR REPORTS

•   Inspection Report on Badge Retrieval and Security Clearance Termination at Sandia
    National Laboratory-New Mexico, (DOE/IG-0724, April 2006). The report concluded
    that Sandia National Laboratories (Sandia) internal controls were not adequate to ensure
    that, in accordance with applicable policies and procedures, security badges assigned to
    terminating Sandia and subcontractor employees were retrieved at the time of departure,
    or that security clearances of terminating Sandia and subcontractor employees were
    terminated in a timely manner.

•   Inspection Report on Security Clearance Terminations and Badge Retrieval at the
    Lawrence Livermore National Laboratory (DOE/IG-0716, January 2006). The report
    noted that the Lawrence Livermore National Laboratory internal control structure was
    not adequate to ensure that security badges were retrieved at the time of employee
    departure, that security clearances of departing employees were terminated in a timely
    manner or that departing employees received a security briefing and signed a Security
    Termination Statement.

•   Inspection Report on Security and Other Issues Related to Out-Processing of Employees
    at Los Alamos National Laboratory (DOE/IG-0677, February 2005). The report noted
    that Los Alamos National Laboratory (Los Alamos) out-processing procedures were not
    followed by more than 40 percent of the 305 terminating employees included in the
    review. Consequently, Property Administrators, Classified Document Custodians and
    Badge Office personnel did not receive timely notification that employees were
    terminating employment, and key out-processing elements were not performed.

•   Audit Report on Personnel Security Clearances and Badge Access Controls at Selected
    Field Locations (DOE/IG-0582, January 2003). The audit disclosed that in three of four
    field locations visited (Savannah River Site, Sandia and Los Alamos), only minor
    discrepancies were found in the recovery of badges. However, at the Oak Ridge
    National Laboratory, a statistically significant number of badges had not been recovered
    from former contractor and other non-Federal workers.

•   Audit Report on Personnel Security Clearances and Badge Access Controls at
    Department Headquarters (DOE/IG-0548, March 2002). The report noted that of
    147 Federal and contractor employee records selected for initial review at Headquarters,
    in 9 cases, despite discontinued employment, the Department had either not terminated
    the employees' clearances or had not recovered their badges. The audit also disclosed
    that program offices did not always hold contractors accountable for adherence to
    Department of Energy policy regarding clearance termination and badge recovery.




                                           7
                                                                        IG Report No. INS-L-12-02


                               CUSTOMER RESPONSE FORM


I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if they are applicable to you:

         1. What additional background information about the selection, scheduling, scope or
            procedures of the audit or inspection would have been helpful to the reader in
            understanding this report?

         2. What additional information related to findings and recommendations could have been
            included in the report to assist management in implementing corrective actions?

         3. What format, stylistic or organizational changes might have made this report's overall
            message more clear to the reader?

         4. What additional actions could the Office of Inspector General have taken on the issues
            discussed in this report which would have been helpful?

         5. Please include your name and telephone number so that we may contact you should we
            have any questions about your comments.


    Name                           Date

    Telephone                      Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations

    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
